<html>
<title> - MILITARY SERVICES' REQUIREMENT ON RECONSTITUTION OF EQUIPMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 109-14]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2006

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON
 
     MILITARY SERVICES' REQUIREMENT ON RECONSTITUTION OF EQUIPMENT

                               __________

                              HEARING HELD

                             APRIL 6, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                    U.S. GOVERNMENT PRINTING OFFICE
23-351                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  


                         READINESS SUBCOMMITTEE

                    JOEL HEFLEY, Colorado, Chairman
JOHN N. HOSTETTLER, Indiana          SOLOMON P. ORTIZ, Texas
WALTER B. JONES, North Carolina      LANE EVANS, Illinois
JIM RYUN, Kansas                     GENE TAYLOR, Mississippi
J. RANDY FORBES, Virginia            NEIL ABERCROMBIE, Hawaii
JEFF MILLER, Florida                 SILVESTRE REYES, Texas
MIKE ROGERS, Alabama                 VIC SNYDER, Arkansas
JOE SCHWARZ, Michigan                ROBERT A. BRADY, Pennsylvania
CATHY McMORRIS, Washington           SUSAN A. DAVIS, California
JOHN M. McHUGH, New York             JIM MARSHALL, Georgia
HOWARD P. ``BUCK'' McKEON,           KENDRICK B. MEEK, Florida
    California                       MADELEINE Z. BORDALLO, Guam
ROBIN HAYES, North Carolina          TIM RYAN, Ohio
ROB SIMMONS, Connecticut             MARK UDALL, Colorado
JEB BRADLEY, New Hampshire           G.K. BUTTERFIELD, North Carolina
CANDICE MILLER, Michigan
TRENT FRANKS, Arizona
                  Lynn Bope, Professional Staff Member
                 Ryan Vaart, Professional Staff Member
                          Paul Lewis, Counsel
                       Mary Ellen Fraser, Counsel
                     Lindsay Young, Staff Assistant
                     Sarah Gelinas, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Wednesday, April 6, 2005, Fiscal Year 2006 National Defense 
  Authorization Act--Military Services' Requirement on 
  Reconstitution of Equipment....................................     1

Appendix:

Wednesday, April 6, 2005.........................................    27
                              ----------                              

                        WEDNESDAY, APRIL 6, 2005
FISCAL YEAR 2006 NATIONAL DEFENSE AUTHORIZATION ACT--MILITARY SERVICES' 
               REQUIREMENT ON RECONSTITUTION OF EQUIPMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hefley, Hon. Joel, a Representative from Colorado, Chairman, 
  Readiness Subcommittee.........................................     1
Ortiz, Hon. Solomon P., a Representative from Texas, Ranking 
  Member, Readiness Subcommittee.................................     2

                               WITNESSES

Christianson, Lt. Gen. Claude V., Deputy Chief of Staff, G-4, 
  U.S. Army......................................................     3
Holtz-Eakin, Douglas, Director, Congressional Budget Office......     7
Hugel, Rear Adm. Mark A., Deputy Director, Fleet Readiness 
  Division, U.S. Navy............................................     6
Huly, Lt. Gen. Jan C., Deputy Commandant for Plans, Policies, and 
  Operations, U.S. Marine Corps..................................     4
Wetekam, Lt. Gen. Donald J., Deputy Chief of Staff for 
  Installations and Logistics, U.S. Air Force....................     5

                                APPENDIX

Prepared Statements:

    Christianson, Lt. Gen. Claude V..............................    41
    Hefley, Hon. Joel............................................    31
    Holtz-Eakin, Douglas.........................................    88
    Hugel, Rear Adm. Mark A......................................    53
    Huly, Lt. Gen. Jan C.........................................    74
    Ortiz, Hon. Solomon P........................................    36
    Wetekam, Lt. Gen. Donald J...................................    65

Documents Submitted for the Record:

    CBO Estimates of Potential Needs Compared with Funding chart.   127
    CBO and Service Estimates of Costs Related to Equipment 
      Stress and Loss chart......................................   129
    Maintenance and Replacement Activities in CBO's Bottom-Up 
      Method chart...............................................   128
Questions and Answers Submitted for the Record:

    Ms. Davis (Susan)............................................   137
    Mr. Hayes....................................................   136
    Mr. Hefley...................................................   133
    Mr. Miller...................................................   137
    Mr. Reyes....................................................   135
    Dr. Schwarz..................................................   136
    Mr. Taylor...................................................   136

FISCAL YEAR 2006 NATIONAL DEFENSE AUTHORIZATION ACT--MILITARY SERVICES' 
               REQUIREMENT ON RECONSTITUTION OF EQUIPMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                   Readiness, Subcommittee,
                          Washington, DC, Wednesday, April 6, 2005.
    The subcommittee met, pursuant to call, at 2:08 p.m. in 
room 2118, Rayburn House Office Building, Hon. Joel Hefley 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE FROM 
           COLORADO, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Hefley. The committee will come to order, and please be 
seated, gentlemen.
    I apologize, first of all, for being a little tardy here. I 
was in the Terrorism Subcommittee hearing dealing with a 
subject that was very important to me. So I just am running a 
little late, and I hate to do that.
    I want to welcome you to this afternoon's subcommittee 
hearing on resetting or reconstitution of military equipment 
returning from Operation Iraqi Freedom (OIF) or Operation 
Enduring Freedom (OEF).
    This is the subcommittee's second hearing on this topic; 
the first was held in October of 2003. Much of the testimony at 
that time indicated that there was not enough information yet 
to determine the cost of reset. Today, we do know more. Through 
emergency supplemental funding, the military services have 
received approximately $9 billion for reset cost. The fiscal 
year 2005 emergency supplemental has a request for 
approximately $9.8 billion for reset requirements. Although 
these figures are large, there are more bills to come. We will 
most likely see those bills in a fiscal year 2006 emergency 
supplemental.
    A structured reset program requires time, facilities, spare 
parts, trained workers, contractors, forward deployed 
maintenance workers and full funding that includes both 
operation and maintenance of procurement dollars. It is not 
clear to me if the reset programs are fully funded. I have 
asked the director of the Congressional Budget Office to be 
present today in order to decipher the different methods that 
can be used to calculate reset costs. Reset is a priority and a 
must-pay bill. Congress must understand how each of the 
services has determined the size of the bill and managing 
implementation.
    I also intend to explore today to what extent factors other 
than money limit reset. Do we have the spare parts? Are there 
adequate facilities both at home and in the theater? And the 
most challenging factor, time; how much time will it take?
    Not surprisingly the Army and Marine Corps have the most 
significant challenges. The current operational tempo 
(OPTEMPO), combined with the aging fleet and significant combat 
losses challenge the Army and the Marine Corps ability to 
sustain operational availability. I expect to learn today what 
actions the Army and the Marine Corps are taking to meet this 
challenge.
    I would like to gain a better understanding of the 
difference between reset and recap, two important programs in 
the Army. I would also like to better understand the Marines 
cross-leveling of equipment as a means to make up equipment 
shortfalls.
    I would like to now turn to Mr. Ortiz, the Ranking Member, 
to see if he has any opening remarks.
    Mr. Ortiz.
    [The prepared statement of Mr. Hefley can be found in the 
Appendix on page 31.]

   STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE FROM 
         TEXAS, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Ortiz. Thank you, Mr. Chairman. I join you in welcoming 
our distinguished witnesses, and I look forward to hearing the 
testimony on this important readiness issue.
    Before I begin, I would like to first express my thanks and 
appreciation to our military personnel for all the sacrifices 
they make in providing for our defense.
    I would like also to recognize the support of the many 
dedicated government service civilians and private individuals 
who work hard to help maintain the readiness of our armed 
forces. We cannot fight and win without them, and I thank them 
for their dedicated service to our national defense.
    Mr. Chairman, our armed forces have been engaged in combat 
operations for over three years now, and the stress of this 
continuous combat is clearly evident on our military's 
equipment. Increased usage rates, environmental conditions and 
heavier armor are wearing out our ground and air equipment as 
much as five times faster than peacetime. This problem is only 
made more difficult by the Department of Defense's (DOD) 
requirement to reconfigure equipment to meet its goals of 
transformation.
    While I have been pleased to see the effort that the 
service has put into meeting these challenges, I am very 
concerned by the growing backlog of expenses that have not been 
requested by the Department's fiscal year 2006 budget for the 
supplemental budget request. By Congressional Budget Office's 
(CBO) estimates, this growing mountain of worn-out equipment 
could cost as much as $18 billion to repair or replace. This is 
an enormous shortfall, and surely it will have an effect on our 
ability to respond to continuances in the future.
    I hope the officers on our panel today, who have the very 
difficult job of managing this emerging problem, will be able 
to explain to you how they plan to overcome this funding 
shortfall.
    One final point I would like to make before I close this 
about the defense: Our defense industrial base, the depots that 
repair all of this damaged and worn-out equipment are carrying 
a tremendous workload. At this point, I see little surge 
capacity remaining in our depots to meet emerging requirements.
    The current conflicts have demonstrated that we must have 
the ability to surge our industrial base and sustain that rate 
over the long term. I hope our witnesses will take this 
opportunity to comment on the defense industrial base and how 
they plan to ensure our depots are strong and fully equipped to 
meet the needs of our troops in the field.
    I, again, welcome our witnesses, and I thank you for your 
courage. Thank you, sir.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 36.]
    Mr. Hefley. Thank you very much, Mr. Ortiz.
    Let me introduce the witnesses and ask any of them if you 
have an opening statement and if you would like to summarize 
that.
    Without objection, all witnesses' written statements will 
be made a part of the record.
    First is Lieutenant General C.V. Christianson, Deputy Chief 
of Staff, G-4, United States Army. Second is Lieutenant General 
Jan Huly, Deputy Commandant for Plans, Policies and Operations 
of the Marine Corps. Third is Lieutenant General Donald 
Wetekam, Deputy Chief of Staff Installation of Logistics, 
United States Air Force. Fourth is Rear Admiral Mark Hugel, 
Deputy Director of Fleet Readiness Division of the United 
States Navy. And finally, Mr. Douglas Holtz-Eakin, Director of 
the Congressional Budget Office.
    Lieutenant Christianson, are you the kick-off guy here?

 STATEMENT OF LT. GEN. CLAUDE V. CHRISTIANSON, DEPUTY CHIEF OF 
                     STAFF, G-4, U.S. ARMY

    General Christianson. Yes, sir.
    Thank you, Mr. Chairman, Ranking Member Ortiz, 
distinguished members of the committee. Thanks for the 
opportunity to appear before you today to talk about the work 
we are doing to reconstitute our Army's equipment.
    Fundamental to our Army's ability to meet future threats is 
the absolute requirement that we rapidly return our equipment 
to an effective level of readiness upon return from operational 
employment.
    Over the past 3 years, the Army has deployed over 40 
percent of its equipment to Operations Iraqi and Enduring 
Freedom. Currently, we have about 15 percent of our equipment 
in the forward area. The increased operating tempo of our 
deployed equipment, combined with the harsh environment and an 
aging fleet plus significant combat losses challenges us to 
sustain readiness at the tip of the spear.
    As an example, Army helicopters experience usage rates 
roughly twice their peacetime rates. Tanks and other track 
vehicles are being used at roughly five times their peacetime 
rates, and our truck fleet is operating at three to five times 
what we would consider normal peacetime rates. This readiness 
challenge can only be met with a structured, formal, fully-
funded program to reset the equipment when it returns from the 
operational area, complimented by a long-term program to ensure 
we can sustain the readiness of our systems over their entire 
lives.
    We feel we have developed a comprehensive approach to 
providing our forces with ready and capable equipment. Even in 
the midst of this conflict, our approach ensures that, first of 
all, the forward commanders have the combat power they need, 
while minimizing the load on the strategic transportation 
system. Second, that returning units will be rapidly returned 
to an operationally ready condition, prepared for whatever 
mission comes their way. Third, as we are able to draw down our 
forward forces, that we can reset that equipment that we have 
kept in the operational area. Fourth, that our Army 
prepositioned stocks (APS), our APS equipment, is brought back 
to readiness condition for its mission as soon as it is able to 
be redeployed. And last, that we have in place a long-term 
program to sustain the operational readiness of our all 
critical systems over their lives.
    Mr. Chairman, on behalf of the soldiers, their families and 
our professional civilians, we greatly appreciate the support 
of the Congress, and especially this committee, in addressing 
our needs. Your support has given us a solid foundation upon 
which we are building a stronger, more relevant and ready 
force. We appreciate your support, and I look forward to 
answering your questions this afternoon. Thank you.
    [The prepared statement of General Christianson can be 
found in the Appendix on page 41.]
    Mr. Hefley. Thank you.
    General Huly.

STATEMENT OF LT. GEN. JAN C. HULY, DEPUTY COMMANDANT FOR PLANS, 
          POLICIES, AND OPERATIONS, U.S. MARINE CORPS

    General Huly. Chairman Hefley, Congressman Ortiz, 
distinguished members of the committee, it is my privilege to 
report to you any actions taken to date to reset the Marine 
Corps as well as our future reconstitution efforts. These 
actions are critical to ensuring we are prepared to meet 
today's operational challenges while maintaining good 
stewardship of our Nation's treasure. I recognize that this is 
only possible with your continued support while we remain at 
war.
    There are a myriad of programs ongoing to reconstitute the 
Marine Corps. Our forces preparing for combat and forward 
deployment are using their equipment three to six times higher 
than normal. This increases the cost of operations and 
maintenance beyond what was originally budgeted. Additionally, 
our gear is being damaged by enemy action and worn down in the 
harsh desert environment. These effects increase maintenance 
and create a toll that frequently renders economical repair not 
feasible after being used in Iraq and Afghanistan. Repairing, 
replacing and redistributing this equipment among units 
rotating in and out of theaters of operation are some of our 
highest priorities.
    Our prepositioning programs have once again proven their 
strategic utility by helping to close rapidly and sustain 
reinforcements in combat. We are recovering from using these 
extensively for Operation Iraqi Freedom, but we face some 
challenges, two of our three Maritime Prepositioning Squadrons 
(MPS) have been reconstituted and will complete a scheduled 
maintenance cycle in the next one to two years. Equipment and 
supplies from the third squadron have been downloaded and used 
for current requirements in Iraq. We are planning to 
reconstitute this squadron and our Norway prepositioned 
equipment as soon as possible, and have identified the 
replacement of our ground equipment as an area where our fiscal 
year 2005 supplemental request will be applied.
    While our analysis of requirement costs continue, we are 
confident that our supplemental request, when combined with 
those additional items presented at the behest of the Congress, 
is what we need to continue to fight the global war on terror 
(GWOT) while continuing to modernize the force, where 
practical.
    Added to supplemental funding requests, the Marine Corps is 
internally funding essential warfighting equipment through an 
urgent-needs process that allows us to fulfill requests and 
provide to marines and sailors rapidly the equipment they need 
to conduct combat mission in operations Enduring and Iraqi 
Freedom. This process of satisfying urgent requests is directly 
tied to lessons learned on the modern battlefield; enables us 
to bypass the normal development procurement process and 
aggressively pursue improved armor, counter-improvised 
explosive device (IED) equipment, medical packages, rifle and 
night-vision optics, and other important items that can be 
quickly placed in the hands of troops conducting operations.
    In September 2004, in order to meet the current enduring 
challenges of the changing nature of the war, the Commandant 
improved numerous structural changes to our operational forces; 
bringing these improvements to fruition will require the 
continued support of this committee in supplemental and 
additional items as we begin the extensive phases of 
recruiting, equipping, building and training these additional 
marine units.
    In closing, I would like to again thank the members of the 
committee for their continued support of the Marine Corps and 
for the opportunity to discuss our current readiness and its 
inextricable link to our resource requirements. Marines' 
accomplishments are a direct reflection of your continued 
support and commitment to maintaining our Nation's 
expeditionary warfighting capability. I look forward to 
answering your questions.
    [The prepared statement of General Huly can be found in the 
Appendix on page 74.]
    Mr. Hefley. General Wetekam.

STATEMENT OF LT. GEN. DONALD J. WETEKAM, DEPUTY CHIEF OF STAFF 
        FOR INSTALLATIONS AND LOGISTICS, U.S. AIR FORCE

    General Wetekam. Chairman Hefley, Congressman Ortiz and 
distinguished members of the committee, I thank you for the 
opportunity to appear today.
    It is my privilege to report on our reconstitution efforts, 
our successes in this area and our challenges for the future.
    The Air Force is organized, trained and equipped to meet 
expeditionary commitments through our Air Expeditionary Force 
(AEF) concept. We have sized our logistics support system to 
meet those AEF requirements, along with maintaining a surge 
capability. Our experiences to date in Operations Enduring 
Freedom and Iraqi Freedom have largely confirmed the fact that 
our logistics system is capable of meeting those requirements. 
We have experienced many successes throughout OEF and OIF. We 
have flown over 270,000 sorties, opened 36 bases and supported 
as many as 31,000 airmen within the Central Command area of 
responsibility. Our airmen have been busy and successful.
    Of course these successes are not the result of internal 
Air Force efforts alone. Congressional help was and remains key 
to providing the funding necessary for protecting our forces, 
replenishing and replacing equipment lost in combat, and 
reconstituting critical capabilities.
    No success comes without challenges, especially in a combat 
environment involving multiple locations worldwide. The cost of 
resetting the force continues to increase with each passing 
year of the global war on terrorism. As we face these 
challenges, we thank you for your continued support. I offer my 
written comments for the record and look forward to our 
discussion on this important topic.
    [The prepared statement of General Wetekam can be found in 
the Appendix on page 65.]
    Mr. Hefley. Admiral Hugel.

 STATEMENT OF REAR ADM. MARK A. HUGEL, DEPUTY DIRECTOR, FLEET 
                 READINESS DIVISION, U.S. NAVY

    Admiral Hugel. Chairman Hefley, Congressman Ortiz, and 
distinguished members of this committee, thank you for the 
invitation to come and spend time discussing the reconstitution 
of our military equipment returning from Operations Iraqi 
Freedom and Enduring Freedom.
    Through your support, the Navy has been able to repair and 
replace equipment utilized to support United States operations 
in theater and maintain the level of readiness forecasted by 
our budget programming models.
    Before I address fleet reconstitution, I would like to 
share a snapshot of what our Navy is doing today. We currently 
have 93 ships and 38,000 sailors forward deployed worldwide in 
support of the global war on terror, including the Carl Vinson 
Carrier Strike Group and the Bonhomme Richard Expeditionary 
Strike Group.
    The Navy Ashore component has proven critical to continuing 
ongoing and combined operations with extensive medical, 
construction and other combat support and combat service 
support to the Marine Corps and Army ground elements. In 
addition, we have recently participated in operation non-
focused items (NFI) assistance, which provided sustained relief 
to South Asian tsunami victims, demonstrating our surge 
capability and the value of seabasing in both responsiveness 
and access.
    Testimony today addresses three areas of fleet readiness. 
The first is maritime readiness, which covers the maintenance 
approach that we are applying to the increased wear on our 
ships and submarines involved in the global war on terror.
    Our ship maintenance budget during this period reflects the 
proper balance of readiness which directly contributes to the 
combined power of our forward presence forces and our ability 
to surge assets as required by the fleet response plan. Due to 
the increased operational tempo associated with the global war 
on terror, we have been experiencing some increase in the war-
related maintenance, and we have been successfully able to 
address those challenges through using supplemental funding. 
Similarly, in the aviation area, we have sufficient 
supplemental funds each fiscal year to fund equipment 
reconstitution for our aircraft supporting OIF and OEF. Our 
aviation and maritime depot maintenance programs have been able 
to fund and execute necessary maintenance and repair actions to 
provide a surge-ready force while maintaining the appropriate 
workload balance between public- and private-sector industrial 
base. Additionally, we are finding and implementing innovative 
process improvements to assure that our maintenance is being 
delivered effectively and efficiently.
    Finally, my testimony addressing our success in 
reconstituting our naval ground forces, in particular our naval 
construction force, allowing continued level of sustained 
support for the Marine Corps and Army ground forces in Iraq, 
Kuwait and Afghanistan. Again, the financial support of the 
budget supplemental process allows the Navy to maintain our 
current readiness levels while still accomplishing the emerging 
wartime missions as they occur.
    In closing, I would like to thank you for your continued 
support of our Navy. Your efforts have been critical in 
allowing the Navy to sustain an unprecedented level of current 
readiness and to be prepared to surge when called upon.
    I would like to thank the committee for offering me this 
opportunity, and I stand ready to answer questions.
    [The prepared statement of Admiral Hugel can be found in 
the Appendix on page 53.]
    Mr. Hefley. Mr. Holtz-Eakin.

   STATEMENT OF DOUGLAS HOLTZ-EAKIN, DIRECTOR, CONGRESSIONAL 
                         BUDGET OFFICE

    Mr. Holtz-Eakin. Mr. Chairman, Congressman Ortiz, and 
members of the committee, the Congressional Budget Office is 
pleased to have the chance to be here today to discuss the cost 
of additional equipment stress. As the committee is well aware, 
the United States has maintained a substantial force presence 
in Iraq and Afghanistan, and the result has been that many 
hundreds of thousands of pieces of equipment are in need of 
repair or replacement.
    The heart of the CBO's work in this area is summarized in 
the chart which you have in front of you and which is on the 
poster, which shows our estimates of the cost of equipment 
stress in this area. As the written statement details, we take 
two approaches to estimating these costs. Given the absence of 
complete and comprehensive data, we take a top-down approach 
which broadly attempts to assess the additional costs by 
looking at faster depreciation due to higher operational tempo. 
And the second approach is a bottoms-up approach, which for 
each piece of equipment would directly measure costs associated 
with sustainment, restoration, recapitalization or replacement. 
But uncertainty is associated with both approaches, but the 
results indicate that, for 2005, there is a range of $7 to $8 
billion in additional costs associated with the higher 
operational tempo and that, over the window from 2003 to 2005, 
this higher cost ranges from somewhere in the vicinity of $18 
to $21 billion. If one goes back over that period, as the 
statement provides the details for, we can see a range of $3 to 
$5 billion in funds dedicated to this task, and as a result, 
there is an accrued unpaid liability there of somewhere in the 
vicinity of $13 to $18 billion for excess costs in excess of 
funding.
    The distribution of these costs across services is unequal. 
Because of the larger presence of the Army, about 60 percent of 
these costs are associated with Army equipment; 20 percent in 
our estimates are associated with Air Force aircraft; and the 
remaining 20 percent are split between the Navy and the Marine 
Corps, with the latter predominating.
    The CBO's estimates are quite similar to those produced by 
the services themselves. Their estimate is about $13 billion, 
and the percentage distribution in cross services is similar as 
well.
    Looking forward, to the extent that the United States 
maintains the same presence in these areas in fiscal year 2006 
and assuming that the operational tempo is diminished somewhat 
next year, one could estimate that these costs will occur in 
the range of $6 to $7 billion for FY 2006.
    Now I would close our remarks in emphasizing the 
uncertainty associated with these estimates. In either 
approach, the top-down or the bottom-up approach, our 
particular estimates could be either too high or too low. In 
the top-down approach, it could be the case that adding an 
additional intensive year of usage does not, in fact, mean that 
the lifetime has been reduced in proportion to that intensity. 
Maybe their peacetime rates are much lower than one would 
expect the equipment to be used at, or in the other direction, 
we could understate the cost by not directly factoring in the 
harsh conditions in which the equipment are operated.
    More generally, under both approaches, an enormous amount 
of data is required to do it exactly right. In the absence of 
that data, we adopted an approach of trying to bracket the 
approach with two different analytic constructs and by using 
analogies where we did not have direct evidence on these costs.
    We thank you for the chance to be here today and look 
forward to answering your questions.
    [The prepared statement of Mr. Holtz-Eakin can be found in 
the Appendix on page 88.]
    Mr. Hefley. Thank you very much.
    We keep getting testimony that a lot of the equipment is 
going to be left over there, simply is not going to come back, 
and you testified to that here. Is that because of the level of 
use of the equipment or the harsh environment, or both? Is this 
equipment that, if it was here in the United States, would be 
repaired and put back into service? The Navy always operates in 
a harsh environment of salt water, and now we are operating on 
the ground in sand. Is that what is causing this? Or is it, you 
feel, that just bringing it back and then having to repair it 
and bring it up to standards would simply not be economic?
    General Christianson. There are really two reasons, Mr. 
Chairman, why we have decided to leave equipment in the area of 
responsibility (AOR).
    First is that some of that equipment is special equipment, 
for example, all of the vehicles that had armor plating added 
to them we left over there so that we could maximize the level 
of force protection. In addition, there is some special 
communications gear. There is gear over there that we have put 
in the theater that allows us to detect explosives. There is 
gear in the theater that allows us to jam frequencies and do 
other kinds of things that we do not have a lot of, so we do 
not want to keep rotating it back and forth. So, primarily, we 
are leaving equipment there that gives the soldiers and the 
forward members of the military the kind of capabilities they 
need to execute the warfight.
    The second reason that we would leave equipment over there 
is to take some of the load off the strategic distribution 
system. Instead of sending things back and forth, the more we 
can leave in theater, the easier it is for us to work on the 
strategic system; plus, it is more rapid for the people to 
transition from one unit to the next if a lot of the equipment 
stays there. So those are the two fundamental reasons.
    The second part of your question is, do we intend to fix 
that? Absolutely, we do. We concur with the CBO findings that 
there is a workload out there that we have not yet identified 
because we do not know when it is going to come back. But when 
it does come back, we will put it through the same process that 
we are doing for the equipment that is coming back with the 
units today.
    General Huly. Sir, in the Marine Corps, we have those same 
concerns with the equipment, and the same rationale added to 
those. We believe we are saving in transportation costs by not 
bringing some of the equipment back, even though we possibly 
could, but to just leave it in place over there and then just 
redistribute what we need within the Continental United States 
(CONUS).
    Some of the equipment over there is one of a kind, so it 
just makes sense to leave it there and get the maximum use out 
of it, and we replace it only as necessary. And some of the 
equipment is just not worth the effort to bring it back; it is 
in such a shape of disrepair that it just makes sense to leave 
it there.
    Mr. Hefley. Mr. Ortiz.
    Mr. Ortiz. At what point do you know that some of this 
equipment that you just cannot bring back has to be replaced 
and buy new equipment? And the period of time that it takes to 
replace this equipment?
    General Christianson. Congressman, actually, we are finding 
out some of that right now. As units have come back with their 
equipment, there is a percentage of their equipment that cannot 
be repaired. It is just too costly to be repaired, and we have 
to replace it. In the cases where we have production lines 
going, you should see that come to you as a procurement 
requirement.
    In those cases where we do not have any production 
capacity, where we are not making the item anymore. For 
example, the Bradley, you will see that come to you in recap 
requirements to turn that chassis, that hull of a tank or a 
Bradley back into a new piece of equipment at the latest 
standards.
    And we have some planning factors we use on how many are 
what we call wash out, in other words, how many are worn out so 
badly that they cannot be repaired and they need to be 
replaced. And I have some of those numbers here.
    In the case of aviation, we are anticipating about three 
percent of our helicopters will never be replaced, they are 
just too beat up. Tracks, about two percent. But the biggest 
number is wheeled vehicles, and we estimate about 12 percent of 
our wheeled vehicles, when they come back, cannot be repaired 
and have to be replaced. So those are the planning factors we 
are using.
    In terms of the timing of when they come back, that is a 
tough question because we rely on the forward commander to 
determine whether or not they need those capabilities forward. 
So in the case of up-armored humvees, I do not anticipate up-
armored humvees coming back for a long, long time until our 
forestructure is drawn down to the point where we do not need 
as many as we do today. So that vehicle is going to be the last 
coming back. So it is a reset requirement that sits out there, 
as the CBO indicated. We just do not know when we are going to 
actually fix them, so it is very difficult for us to anticipate 
programming those dollars.
    Admiral Hugel. Sir, we have recently undertaken an 
initiative to establish repair and replacement facilities in 
theater. And as you probably know because you have been there, 
the operating forces get the equipment in their hands, they get 
comfortable with it, and by golly, they are going to use it. 
And it is just the case of having the one in your hand. It is a 
process for us to get them to evaluate that equipment, to turn 
it in, to get a new piece of gear, and then we evacuate that 
piece of equipment to a location, generally either in the rear 
with our foreservice support group in theater, or we evacuate 
it back to Kuwait, so we can get a good analysis of it. And I 
do not have to tell you because you have been there, but you 
have seen some of the equipment. It is just not equipment that 
you would want to bring back and operate with in the United 
States. Perhaps the turn signals might not work on it. Perhaps 
the speedometer does not work. It is just nothing that will 
ever prove worthwhile for us to repair and replace back here 
again, but it meets the purposes for over there, and it just 
makes good sense to keep it in theater for as long as we 
possibly can.
    General Wetekam. Sir, if I might for the Air Force.
    Our situation is a little different. We do rotate most of 
our equipment. In terms of our aircraft, we do rotate those, 
and so they receive depot-level maintenance, et cetera, back 
here at their normal depots.
    A lot of that is true also for our ground support 
equipment. The major exception are vehicles and some of our 
specialized mobility handling equipment. Even prior to 9/11, we 
had five War Reserve Material (WRM) sites established in 
theater with contract support, and so while we have had to plus 
up those contracts for support of additional equipment that we 
have put in theater, we do have in-theater support for a lot of 
that stuff.
    Admiral Hugel. Congressman, as you know, the Seabees we 
have on the ground have similar ground support equipment as our 
Marine Corps brethren. We have folks there to do maintenance on 
that equipment on the ground. And as long as that equipment is 
economically feasible to maintain, then we are going to keep it 
maintained and bring it home with us when the time comes. When 
it is just not economically feasible to do the repairs anymore, 
then we will abandon it in place, but we do not see very much 
of that.
    Mr. Ortiz. I just have one more question, Mr. Chairman.
    You know, given the current state of the equipment and the 
condition of the equipment, what would happen, God forbid, if 
there is an unforeseen crisis somewhere in the area? You know, 
we have Lebanon, Syria. We have Iran. We have Iraq. Some of the 
equipment is not worthy. Can we respond to another unforeseen 
crisis with what we have?
    General Huly. Sir, for the Marine Corps, we have 
approximately 25 percent of our aviation assets of our total 
assets in the inventory, and about 30 percent of our ground 
equipment in Iraq and Afghanistan right now.
    We have sufficient storage. We have two maritime 
prepositioned squadrons worth of equipment that we have not 
touched and we have fenced, so to speak. And they are forward 
deploy, one in the Mediterranean and one in the Pacific region, 
so that if we needed to respond to a crisis, we would have a 
maritime prepositioned squadron worth of equipment.
    Added to that, we still have equipment with our 
organizations in the Continental United States that we are 
swapping around, cross-leveling to get back to the units as 
they rotate. So I believe that we have sufficient assets, more 
than sufficient assets, to be able to respond to a crisis.
    Is it necessarily the equipment that we are going to want--
that we are going to actually need in the next crisis? I will 
tell you, for instance, right now, we do not have a lot of up-
armored vehicles, humvees, for instance, in the Continental 
United States because as fast as the industrial base can 
produce them, we are shipping them directly into the theater. 
If something were to break out that we needed armored humvees 
again in a different location, we would have to look at either 
another source of supply for those or actually sharing what we 
have elsewhere. But overall, I think we are in good shape to 
respond to any crisis that develops, that we certainly are 
anticipating might be a potential.
    General Christianson. As you know, we have prepositioned 
sets; we have a set in Korea that is pretty much land-bound in 
Korea if something were to happen there. We also had put, about 
two years ago, a Flotilla, a one-by-one brigade, aboard ship 
that has got some strategic flexibility and can move. So we do 
have some prepositioned assets.
    And the 4th Infantry Division and the 101st are just 
finishing their reset coming back. If something were to happen 
and it was important enough, we would probably hold units in 
the current operation to use those organizations to respond if 
we had to.
    So we have got about 15 percent of our combat equipment 
forward positioned in Iraq. The rest of it remains here. About 
a third of that is going to reset. The rest of it is ready to 
go. So there would be some difficult decisions, but we have the 
capability to respond.
    Mr. Ortiz. My time is up, thank you so much.
    Mr. Hefley. Mr.Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    First of all, I want to say I am honored that these 
gentlemen are here today. I regret that we could not have 
included the Guard and the Reserve because I think an important 
component that we are missing today is that the overwhelming 
preponderance of Guard and Reserve equipment that has gone to 
Iraq stayed in Iraq, and so we are looking at a portion of the 
problem, but the biggest portion, if you are looking for the 
problem, is what the Guard and Reserve left behind, and I think 
that is a fair assessment.
    I would like to ask a few questions in particular of the 
Air Force. I am troubled by the Administration's acknowledged 
plan to terminate the C-130J program, particularly in light of 
every trip that I have taken to Iraq, it is pretty apparent 
that we are flying the wings off of the C-130's that are in the 
region. A lot of those are E models, I am told, and a lot of 
those the Air Force has already scheduled to retire at the end 
of this conflict. So I would like your thoughts on that, what 
is being taken to address that.
    I would like to hear what your different Guard and Reserve 
components are telling you. I know the Marine Corps Reserve has 
been extremely active in Iraq, I know the Army Reserve and Army 
National Guard have been extremely active over there. I am sure 
you have called up the seabee reserve to serve over there, and 
so my hunch is that a lot of the equipment that was dedicated 
to them--and I know for a fact that, when the 90th Engineers 
came back to Mississippi after their tour in Iraq, they left 
every stick of equipment they had behind. So we have now been 
through a hurricane season that, thank goodness, did not hit 
Mississippi, but was only 60 miles away. The folks we were 
counting on their stateside mode to help reopen the roads and 
get electricity to the people and fix bridges; they did not 
have a stick of equipment last August and September when the 
hurricanes hit many parts of the states adjacent to us.
    And last, I would like to turn this back to the Marines and 
the Army.
    I am happy that this committee is doing, I think, a lot of 
work toward resolving the armored humvee problem; we still have 
a lot to do. Just last week, a couple of Mississippians were 
horribly injured, one losing two legs; but all present 
acknowledged that had it not been for the fully-armored humvee, 
that those two soldiers probably would have lost their lives.
    It is something I should have seen myself, but thank 
goodness someone else was smart enough to point it out to me. 
Almost all of our vehicles in theater have flat bottoms. When a 
mine detonates underneath that flat bottom vehicle, it is much 
like a flat-bottom boat hitting a wave; the reaction is very 
severe. You are catching the full pressure of that detonation. 
It throws the vehicle up. In the case here, the humvee was 
thrown over 10 yards I am told.
    I am told that in some parts of the world, and particularly 
the South Africans, in responding to the landmines that they 
were encountering during their wars, they went back and 
redesigned many of their urban fighting vehicles to have a V-
bottom. Much like a V-bottom boat, it slices and diffuses that 
force. In fact, I am told the Russians were probably very good 
at this and that most of the vehicles they used in Bosnia had a 
V-bottom. And when their vehicles would hit a landmine, it blew 
the tires off, but the people inside the vehicle walked away 
from it.
    What is being done as we reconstitute to be a little bit 
smarter? And I have got to admit, I am one of the ones that 
fought very hard for the up-armored humvees, but maybe it is 
time to look beyond that to some sort of an urban fighting 
vehicle that incorporates a V-bottom so that we find ourselves 
with fewer young people that are in Walter Reed because of 
their legs blown off as a result of that flat bottom.
    So I know it is three questions, the C-130J, sir, the talk 
about your Guard and Reserve equivalents and their equipment 
shortages, and what are we doing as far as looking at the next 
generation of fighting vehicles and responding to the landmine 
problem that we are encountering in Iraq?
    General Wetekam. Sir, if I may, I will start with the C-
130J briefly.
    The Department of Defense has indicated that we are going 
to review the production decision on the 130J within the 
Quadrennial Defense Review (QDR). The 130J is really part of a 
larger issue, and that is the theater lift issue, and what do 
we need and what is our current capability and what is our 
current fleet telling us?
    The production termination decision was made almost 
coincidentally with the discovery that our C-130E and early age 
model fleet was not as robust as we thought it was. Essentially 
the problem with the center wing box that was discovered almost 
at the same time. And so what we are really doing is looking at 
the entire theater lift issue, the C-130 fleet as a whole. The 
130J obviously has to be a part of that solution as we 
determine really what part of the 130E model and H model fleet 
are going to be available to us, what it takes to reconstitute 
that fleet. And so that will be--that is being looked at 
currently.
    General Huly. Just for the record, so we do not get lost in 
the shuffle; the Marine Corps is also into the C-130Js. Our C-
130J requirement and solution is different than the United 
States Air Force's. We received some 33, I believe, of the C-
130Js out of a fleet of about 51 we were anticipating. Recent 
funding decisions got us cut off for the procurement of those 
last 18, but we think that that funding is being put back in so 
we can ultimately get our requirement of the C-130Js. But to 
us, the C-130J version that we are getting is a great aircraft, 
and we look forward to its service for many years in the 
future.
    Mr. Taylor. General, to that point, I had the good fortune 
to meet one of your flight crews in Kuwait just last week, and 
they had been up most of the night refueling other planes. And 
he was extremely proud of the performance of the plane. What he 
did request--and I am going to pass this on to you--is the 
program to replace the fuel pods can be moved along, apparently 
they took the pods off some older models and stuck them on the 
newer planes. He felt like it was in the works. If there is 
anything this committee can do to move that along, I am asking 
for your thoughts on that.
    General Huly. Sir, I am going to take that question for the 
record, and I will get back to you on that, to exactly what the 
status of that is. I know it is in the works, but I want to 
give you the exact scoop.
    [The information referred to can be found in the Appendix 
beginning on page 136.]
    General Christianson. Sir, let me address first of all the 
equipment that we left behind, particularly for the Guard and 
the Reserve forces.
    The Army has developed a force generation model of which 
will put our Reserve components of one in five or one in six 
years, and what the intent is that for one year out of that 
five or six year cycle they would be ready for deployment. The 
challenge we have right now, particularly with the Guard, is 
with their homeland security and their state missions, the 
suite of equipment they must have in their unit to do that 
mission you just mentioned for the Mississippi Guard, we have 
not yet identified this. We will identify that, and we will 
fill those units with that equipment. So even coming out of a 
deployment like the one we came out of now, we are obligated to 
provide the equipment to those organizations to execute those 
state missions. And then as they come into that one year 
window, then we give them all the equipment they need to 
execute their full-mission suite. That process was not in place 
when the first rotations came back, as you know. So most of the 
Guard and Reserve units, engineer in particular, transportation 
units in the Reserve had to leave almost all of their main 
equipment in country, and it is still there being used every 
day. So we have that challenge to address that.
    Our intent is to handle the Guard, the Reserve and the 
active forces exactly the same. The rotational model is one in 
three years for active, one in five for the Army Reserve, and 
one in six for the National Guard. That is the intent. Now we 
did not get there right away with these forces, so we still 
have some work to do, but at the strategic level, we are going 
to maneuver the equipment to give the units the capability to 
be able to handle their mission sets.
    General Huly. As far as the Reserve equipment for the 
Marine Corps goes, we are doing our best to cross-level once 
our Reserve levels get back; 95 percent of all of our Reserve 
units have seen combat in either Afghanistan or Iraq. And as 
they return, we are providing them with what equipment we have 
got and replacing the equipment that has been damaged or 
destroyed, looking for industrial base opportunities where that 
is needed. And we are also trying to, as you pointed out, be a 
little bit smart in what we are replacing in anticipation of 
our future requirements. We are looking for those opportunities 
and vehicles to get better armor on them, underneath armor. We 
have taken some of our humvees, as you know, and armored them 
up better on the bottom so that they can withstand a certain 
quantity of a landmine or an explosive charge placed underneath 
them. That does not get all of the support that we want under 
there, and we are looking forward to the next generation of 
vehicles, but have not decided on which one to procure yet.
    Admiral Hugel. Congressman, our active components are an 
integrated fighting force; we prepare the units and first 
units; we marry those two up. Right now the equipment is in 
use. About half of the equipment is Reserve equipment; the 
other half is active equipment, but all of the equipment is 
being treated and maintained the same way, and it is as a 
result of this close integration of the reservists into our 
construction battalion (CB) battalion.
    General Christianson. And Congressman, if I could address 
the question of armor protection for our forces forward given 
the environment they are in, particularly in regard to the 
humvee and its flat bottom, really I think the vehicle of 
choice over there is the stryker, which does not have the same 
type of bottom and is much more protective for the forces, over 
800 armored security vehicles--which is a special vehicle 
designed much like the South African vehicle you mentioned.
    And third, we have purchased some of the sport utility 
vehicle (SUV) 31s from South Africa, and those who are the most 
exposed for this kind of damage are using those vehicles over 
there. So we have taken those vehicles right now, and we look 
to the future and what kind of land vehicle are we going to 
have. In the Army's case, the tactical truck system, how it 
looks is going to be driven much by what we learn here, and the 
last point that I would leave is still the vehicle that we are 
not going to go away from is the heavy armored vehicle, so we 
do not see any intent in the future that the Army is going to 
get rid of any tanks or Bradleys. But they all need to provide 
the level of force and protection that I think both you and I 
would like to have.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    I want to pursue this a little bit about the Guard and 
Reserve forces, if I might. About a year and a half ago, when 
the 39th Brigade left Arkansas, I went out one of the days when 
they were loading up the equipment on rail cars, it was like 
the biggest use of rail and moving of equipment since World War 
II through Arkansas, and it was just rail car after rail car. 
And so they moved all that stuff with them. And now they have 
come back, and most of them are now back in Arkansas or 
Oklahoma.
    So General Christianson, can you explain to me kind of the 
trail now that is going to happen in terms of if I am General 
Morrow in Arkansas and I am trying to figure out how to replace 
this equipment that is either worn out or some left behind, so 
who does the adjutant general go to? Does that come directly 
through you or--walk me through that, if you would, please.
    General Christianson. It is going to be a centrally 
controlled program. The Army Materiel Command effective 1 
October this year will be completely in charge of this program. 
We will work directly with the Army National Guard, G-4, my 
equivalent on the Army Guard side, directly with the State 
maintenance officer and the units in the organization.
    What the unit commander should expect is for the equipment 
they have brought back with them, it should go through the same 
reset program that all of the active forces have gone through, 
no difference. The timing may be different. Where it is done is 
going to be controlled by Army material command. So a lot of it 
is going to be done locally, but some of it will require 
repairs that will have to go to the depot or will have to go to 
some kind of a higher level organization.
    So our intent is to leverage the combat supplies management 
system (CSMS), the mates, all of the technical capability the 
Guard has, but to leverage all that in the context of a unified 
national program with a single standard. So no one is going to 
get something back at a lower standard that comes out of this 
program. That is our intent.
    Dr. Snyder. So requests from the Guard or the Army Reserve 
not come through you, or do they? They eventually get to you?
    General Christianson. Yes, sir. They will come to me from 
the National Guard, the bureau itself here in Washington, and 
then we will bring that all together. And then Army Material 
Command is kind of the coordinator of the national program who 
will ensure that all of this work is distributed right and that 
the standards have been--they obtain the same level of 
productivity and standards coming out.
    Dr. Snyder. I have not talked to the folks back home about 
this issue yet, but as you know, the concept of the enhanced 
brigades came up so we could take certain units and make sure 
they got the equipment they needed, and I think that probably 
has worked reasonably well, but these are the folks that did 
get some help with getting equipment several years ago, but 
they have now gone overseas. And I think there is some fear 
that perhaps now they will be behind getting that replaced. Is 
that a reasonable fear to have?
    General Christianson. The enhanced brigades are also going 
to be modularized as they go through this reset process. They 
will come out of this reset process looking different than they 
did when they went into this operation. They are going to look 
just like the Army modular brigade construct, it will be no 
different. If it is a heavy brigade. It will look the same as 
all other heavy brigades, so when it comes out of this process, 
as its equipment is reset, it will be issued the right kind of 
equipment to meet those requirements. I can take for the record 
the timeline to know when 39th is actually going through its 
modularity window because that will give you and the Adjutant 
General (AG) a picture, a window of when they should come out 
of this looking like the new organization.
    Dr. Snyder. That is all right. You do not need to take that 
for the record. I was using them as an example. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    General Wetekam, you referred earlier to the Quadrennial 
Defense Review. I want to ask you about the mobility 
capabilities study; very very much concerned about the issue of 
C-130's, we grounded a bunch of them at Pope. They had to move 
one of the 45th National Guard planes to back field. Does the 
Mobility Capability Study take into account the 
recapitalization and reconstitution issues that you mentioned 
in your testimony on page four?
    General Wetekam. Sir, it takes into account those issues to 
a degree, but it is not at the heart of the Mobility Capability 
Study (MCS).
    What we expect out of the MCS--and of course, it is not 
produced yet--it is essentially a range, if you will, of forces 
that will be required, depending on the contingencies. I 
certainly share your concerns relative to the existing C-130J 
fleet.
    In addition to Mobility Capability Study, Air Mobility 
Command and the program office, the C-130 program office, are 
working hard right now to assess what the data, the new data is 
really telling us with regards to the condition of the C-130's, 
the older 130's that have the center wing box problems you 
referred to, sir.
    Mr. Hayes. Well, the data is telling us it is a bad 
problem. I think what you are going to find, when you look more 
closely, with the grounded birds and wing boxes, it is worse 
than we think, and we very badly need to get into spending 
money on the new Js.
    And when you answered the question for Congressman Taylor, 
you mentioned a wing box. Did you say it is better or worse 
than we first thought, or did I misunderstand that?
    General Wetekam. It is worse than we first thought. We had 
initially established a limit at 45,000 equivalent baseline 
hours, at which we restricted--put flight restrictions on those 
aircraft, but continued to operate them. What we found out in 
recent months is that 45,000 equivalent baseline hours is the 
point at which we actually need to ground the aircraft, and we 
have moved that restriction limit back to 38,000. So it is 
worse than we thought it was until a few months ago when we got 
essentially new data as we have worked more with the center 
wing boxes. It is not getting better; it is going in the wrong 
direction.
    Mr. Hayes. You are confirming what we had feared.
    The MCS study was due at the end of March; now it comes out 
at the end of April. I am pretty sure we use that as another 
way of letting folks up here know what the situation is. At 
Pope, we have got 31 aircraft grounded, seven or eight limited 
flying status, 20 percent of the fleet, 84 of which are on 
active duty on restricted weight capabilities. We have just got 
to keep hammering the fact that recapitalization, that is 
keeping our young men off the ground in Iraq and Afghanistan 
and increasing safety.
    Talk at length about the continued, not just procurement as 
it is now outlined--and hopefully, we have corrected the 
initial oversight in the budget for continuing production. 
Speak to that, and then speak to the issue of what really we 
need, and that is more C-130Js than was initially projected. 
And anyone else that would like to speak in the range of 
whoever uses them, I would love to have your comments for the 
record. We need those aircraft badly.
    General Wetekam. Yes, sir. Essentially, the production for 
the Marine Corps 130's is kind of bridging, if you will, the 
production gap until the department can fully assess the 
impact, as referred to earlier.
    Mr. Hayes. There is a study underway, and I am sure you are 
probably aware of it, but I know there is a request, and that 
is, the amount of money that is being spent, we are way past 
the point of diminishing returns. We are spending money on 
aircraft that may fly for a limited amount of time; some that 
will never fly again. We need to transfer those tax dollars 
into new aircraft with availability and capabilities that are 
full time, not limited on weight. So again, any comments on 
that? And I yield back my time after that answer.
    General Wetekam. Sir, I just say that I share your concerns 
with aging aircraft, 130's are a big part of that, but we have 
other fleets as well, as you are certainly aware, that are in 
the same boat. Our KC-135 fleet, which averages about 43 years 
of age----
    Mr. Hefley. Do not lose focus. If we can get them on the C-
130's, then obviously have answered on the 15s and the KC-135s 
and so on. You are right. Let's give the people some airplanes, 
you know?
    General Wetekam. Yes, sir.
    Mr. Hefley. Dr. Schwarz.
    Dr. Schwarz. General Wetekam, we are not picking on you, 
sir, but let's talk about A-10s. My understanding is that there 
are about 200 A-10s Guard, Reserve and Active left in the 
inventory; is that about correct?
    General Wetekam. Sir, I believe it is slightly higher than 
that. I can tell you in just a moment what the total number is.
    We have a total, total inventory including trainers of 357 
active and on-guard Reserve.
    Dr. Schwarz. That is a lot better than I thought. The plan 
is to upgrade, refit, refurbish. What part of that fleet to 
keep them active and in the inventory, my understanding, until 
maybe the year 2018, 2020?
    General Wetekam. Sir, I will have to take that for the 
record and provide you an accurate assessment. We do have 
upgrade plans for the A-10, but I do need to be sure what 
portion of the fleet and what the projected service life is.
    [The information referred to can be found in the Appendix 
beginning on page 136.]
    Dr. Schwarz. I feel about the A-10 the way my friend Mr. 
Hayes feels about the C-130J. I have a vested interest in it. 
There is an A-10 base in my district, but that A-10 squadron 
has flown in every operation this country has been involved in 
for the past 15 or 18 years, including the first Gulf War, 
Kosovo, the southern no-fly zone, Iraqi Freedom, and they are a 
superb outfit.
    Then I speak with my friends who are both retired and 
active officers in the Army and the Marine Corps. When you talk 
about plans the Air Force might have to take the A-10 out of 
the inventory and replace it with another close air support 
aircraft, they are unhappy campers.
    So my interest is, and the assurance, that I want, if you 
can possibly give me, is that keeping the A-10's in the 
inventory active and in support of our Marine Corps and Army 
troops on the ground is--that is the plan, that is ongoing.
    General Wetekam. Yes, sir. We have long-term plans for the 
A-10. We will, as I said for the record, provide you with the 
detailed force structure laid out for the outyears. But we 
certainly share the Army and the Marine Corps' enthusiasm for 
the A-10 as well. It has been a great performer for us.
    [The information referred to can be found in the Appendix 
beginning on page 136.]
    Dr. Schwarz. Thank you very kindly, General. I would yield 
back my time right now. I have another question later.
    Mr. Hefley. Mr. Reyes.
    Mr. Reyes. Thank you, gentlemen and thank you for being 
here.
    The first question I have, on the occasions that I have had 
to visit in theater, we have been told various things about how 
fast the equipment is wearing out. Is it accurate that the 
equipment is wearing out five times faster than we anticipated 
because of the harsh environment?
    General Christianson. I am not sure that it is accurate 
that it is wearing out five times faster. I think it is 
accurate we are using it five times more than we would in 
peacetime operation, training operations. How much wear is 
being done kind of depends a little bit on the equipment.
    As I mentioned earlier, with wheeled vehicles that we have 
added a lot of extra armor to, so it is carrying extra weight. 
I believe they are wearing out much faster.
    What we are finding out on the aircraft--when we have come 
back for those aircraft that we have completely reset--that 
there is not as much wear as we thought. Part of that is 
because I believe our soldiers learned from Desert Storm and 
took actions as part of these operations to avoid some of the 
damages we saw on those helicopters during Desert Storm.
    The same thing has been applied to some of our ground 
systems. We have better filtration systems. The maintenance 
checks and services the soldiers are doing forward, I think, 
have helped to help alleviate some of the wear. Not the usage.
    The usage is five times higher than normal. But the wear 
depends on other things. As I mentioned, we are not seeing that 
in the stuff we are resetting right now, with the exception of 
wheeled vehicles, which I think are wearing out at a higher 
rate than our other equipment.
    Mr. Reyes. In that same vein, what are the lessons that we 
have learned? Is somebody in a position to not only evaluate 
but to make recommendations and maybe implement changes to 
either our logistics system or the design of the vehicles that 
are wearing much faster? What is being done in that area?
    General Christianson. Exactly what you said is what is 
happening. We are taking the lessons learned and applying them. 
The lessons learned after Desert Storm were applied primarily 
to aviation and paid huge dividends in this operation.
    The aircraft that came back out of this last operation, as 
I mentioned, the wear and tear was much less than we thought. 
In addition, other lessons that are learned are being applied 
during the RESET. So if we are able to put improved 
capabilities on those helicopters, better screening systems for 
dust, better capabilities for cleaning. We are doing that as 
part of the RESET program.
    Better training for the soldiers, what extra steps should 
you take in this kind of environment when you are operating? 
Those are also lessons that are being applied every day at the 
point of the sphere. So we are doing exactly that.
    I think where we see the results is in the equipment 
forward. So even though the equipment is being used at a much 
higher rate than normal, we are seeing readiness rates that are 
94, 95 percent almost across the fleet. With aviation, almost 
all of our aviation fleets are well above the Army standard in 
the deployed area despite their high usage. So I think they are 
applying many of the lessons.
    Mr. Reyes. What about some of the information that we get 
that parts are taking a long time, vehicles are deadlined for 
parts and are down an inordinate amount of time.
    What do you know about that? What are you doing about that 
and where are we today about that?
    General Christianson. In the two and a half years that we 
have been in operation over there, there have been significant 
changes to the way the supply distribution system works. As you 
know, there is--there are a lot of items that are moving by 
ground and it is a long ways, so we have used a lot of repair 
time, a lot of time just waiting for supplies to be delivered. 
But today I can report that for those items that are ordered 
and delivered by air, the turn-around time is 18 days on 
average over there.
    The biggest problem we are having is the distribution 
locally, because when it gets up into Iraq and then gets out to 
the forward operating basis, those distribution runs are all 
made in coordination with all of the maneuver forces. They take 
into consideration the security environment, as you can well 
imagine.
    But we are getting good turn-around times in supply. 
Eighteen days is very, very good. Now this is compared to 
almost twice as long a year and a half ago. So we are doing 
very, very well.
    The other indication that the repair part situation is good 
is on aviation. We have very few helicopters that are down 
waiting for repair parts. We have about 10 percent of our 
helicopters that are in a phased maintenance. After so many 
hours, they bring them in for a phase maintenance. I think this 
is also indicative of a good supply system and lessons learned 
and applied in this operating environment. We are watching it 
every day. We watch the supply turn-around times every single 
day.
    Mr. Reyes. Are these--excuse me, go ahead, General.
    General Huly. Sir, in the Marine Corps, perhaps in the 
early stages of the campaign, there might have been some supply 
problems or some delays. But I have heard of no reports of any 
recently and readiness rates don't bear out that they have got 
a problem.
    Our readiness, like the Army's, is way into the 90 percent 
for our ground vehicles. So I think they have got the supplies. 
They have got the maintenance capabilities to keep things 
running. Our aviation rates over there as well remain high. 
This is because we do have the forward in store supplies and 
the maintenance effort over there.
    Conversely, however, though, our maintenance on the CONUS-
based aircraft is declining. It is declining at the expense, 
because we are putting the effort into keeping things forward 
deployed. That is where the emphasis is right now.
    Mr. Reyes. Mr. Chairman, can I ask one quick follow-up by 
way of documentation? I was going to ask, are there reports 
that can give us a comparison of how things were early on in 
this conflict versus where they are today? Could we get copies 
so we could take a look at them?
    General Christianson. Congressman, I will take that for the 
record, and I will give you some background. We track that all 
the time.
    I wanted to add one thing that I forgot that is very 
important. In the last couple of years, one of the things, one 
of initiatives that we have taken that has paid huge dividends 
is we now have satellite connectivity to the very forward edge 
of the battlefield for logisticians.
    So before where we take several days for a request for a 
repair part to get back here to the United States, today it is 
happening in less than half a day. That makes a huge difference 
in the ability to support the forces. Because now the people 
who are back here supporting are able to respond rapidly. The 
last point I would make is we also have a supply capability in 
Kuwait.
    About 35 to 40 percent of the repair parts that are needed 
in Iraq are coming from that warehouse in Kuwait. So that 
shortens the supply pipeline significantly and helped us in 
turn-around time, but we will get you the information and you 
can see what happened.
    [The information referred to can be found in the Appendix 
beginning on page 135.]
    Mr. Reyes. Thank you. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I would like to go 
back to the C-130 question, and particularly the wing boxes. 
Can you, in particular, General, talk about how many aircraft 
are currently affected by wing box cracks? Given the rate that 
we have seen over the last year with the problem, can you 
forecast what we may run into this year? I ask all this to go 
to the point of the company or companies that produces the wing 
boxes, do they have the capacity? Are they producing fast 
enough to be able to replace what needs to be done so that we 
don't run into a crisis in regards to replacing those parts.
    General Wetekam. Yes, sir. First off, the first part of 
your question is we have--and these numbers change, because as 
we operate aircraft they obviously move into that over 38,000-
hour category and then the over 45,000 or 45,000-hour base line 
category.
    But my most current data is that we have 35 aircraft that 
are over 45,000 hours and so essentially are restricted from 
all operations at this point. In addition to that, there is 
another 56 aircraft, and this includes also C-130Hs, it is not 
just the E models, but some of the earlier H models. Fifty six 
aircraft that are in that restricted area where they can 
operate, but they have significant limitations on maneuvering 
and on carriage, weight carriage.
    I will take for the record what our projection is for the 
next year. There are a number of aircraft obviously that will 
be moving into those categories, and I will take that for the 
record.
    Relative to the production capacity, we think that it is 
about 36 per year, according to the manufacturer, 36 center 
wing boxes that could be produced. And so--but it is not just a 
case of producing the wing boxes, it is also a case of having 
the depot capacity then to replace the wing box. We couldn't do 
36 simultaneously, and we are still assessing that.
    So the wing box production capacity itself would seem to be 
adequate. But we haven't fully assessed what the depot capacity 
could be and how fast we could put those aircraft, particularly 
those 36 that are already in the--or the 35, rather, that are 
in the grounded category through the depot.
    Mr. Miller. Does the work actually have to be done at a 
depot. Can it be done privately?
    General Wetekam. Yes, sir. I say depot, but that could be 
either public sector depot. We do in C-130 work in both Ogden, 
Utah and Warner Robbins, Georgia. There are a number of private 
sector depots that do contract C-130 work and have in the past 
as well. I would suspect that it would be a combination of the 
two.
    Mr. Miller. I would hope, so because we have a facility in 
Crestview that does a lot of work. When I look at the numbers, 
I see that the private sector does--not that I am against 
depots at all, but it seems that they are turning out equipment 
faster within budget, and I want to make sure that we don't 
just force everything back into the depots to get the work 
done.
    General Wetekam. No, sir. In a situation like this, where 
we have an operational restriction, we would seek to repair it, 
you know, address it as quickly as we could, using whatever 
capacity is available.
    Mr. Miller. Very good. Thank you, sir.
    Admiral, can we go to the water for just a minute.
    Admiral Hugel. Yes, sir.
    Mr. Miller. You may have addressed it before I got here. 
But talking about the Kennedy and the plans to retire the 
carrier does, this cause a capability issue as we reconstitute 
our forces? What happens when the Kitty Hawk comes home to be 
retrofitted, you know, during that period of time?
    Admiral Hugel. In the near term, Kennedy was already 
planned to be in a maintenance period, and so we had enough 
other carrier strike group capability in place to continue to 
supply our six plus two carrier strike group rate, and that is 
in accordance with the fleet strike plan.
    We are looking now over the longer term to determine 
whether we will be able to continue supplying six plus two 
carrier strike group readiness or something less than that with 
Kennedy out of the mix.
    A piece of that work is understanding the--not only the 
capability that we need to have deployed but the presence that 
we need to have. Those two things, coupled together, to make 
sure that we are meeting the combatant command (COCOM) 
requirements forward.
    We are additionally looking at Kitty Hawk and the Kitty 
Hawk replacement. The plans are not finalized yet on replacing 
Kitty Hawk. So further study required there before we announce 
where we are going.
    Mr. Miller. You--I have heard the discussion, in regards, 
if I might, for just a second, Mr. Chairman. I know my time is 
out. In a 30-second nutshell, I have heard the term 
``mothball'' used in regards to the Kennedy. What does that 
mean?
    Admiral Hugel. We have fundamentally two different kinds of 
things we do with a ship after we inactivate it, Congressman. 
One is to mothball the ship, basically to lay the ship up in a 
condition so that if we decide somewhere down the road we need 
to reactivate the ship, the systems have been dried out, the 
ship has been dehumidified so that rust and the deterioration 
of the hull life components doesn't get away from us. The other 
alternative is to scrap the ship, to cut it up, and that is a 
pretty final action.
    So mothballing or demobilizing the ship allows us to put 
the ship away, but to recover the ship if somewhere down the 
road we decide we need the ship back in the inventory.
    Mr. Miller. I understand when you--the reasoning, I guess, 
behind from a financial standpoint. But can you quasi-mothball 
something and turn it into a training carrier?
    Admiral Hugel. Quasi-mothballing means taking pieces of the 
ship completely out of action, sealing the compartments and 
locking it up. If we were to use a ship for a training asset 
you need to have access to the entire ship. If there is a flood 
in the ship, you need to get to wherever the problem might be, 
and so it is impractical to partially mothball a ship and 
continue to operate it, sir.
    Mr. Miller. Okay. I have got some other questions in that 
regard, but I will pass them too you.
    Admiral Hugel. Yes, sir.
    Mr. Hefley. Mrs. Davis.
    Ms. Davis. Thank you.
    Thank you, Mr. Chairman, thank you to you all for being 
here, and for your service, and particularly to General Huly. 
We miss you, and miss your service in San Diego.
    I wanted to turn just a second to what could be, I guess, 
the most personal of all readiness questions, having met with a 
group of Marines just a few days ago in San Diego, who were 
being treated at Balboa Hospital.
    One of their big concerns was that their weapons jammed, 
and that even despite their cleaning the weapons constantly, 
that they still are having a lot of problems, it is hard to get 
a replacement, and they also mentioned that they would like to 
have a side arm available to them so that when their weapons 
jammed that they have a backup.
    Could you tell me how you would respond to them when they 
make those requests, and what we are doing about that?
    General Huly. Ma'am, this is the first that I have heard of 
any weapons jamming in combat or in any training leading it to 
it. If it is so, it hasn't been a problem that has been brought 
to our attention. I am sure if they are saying it happened to 
them, then we will check it out. So I am going to have to take 
your question for the record. I will find out which units 
specifically and to see what the problems were.
    [The information referred to can be found in the Appendix 
beginning on page 137.]
    Ms. Davis. Okay, I can help you with that. Thank you.
    General Huly. Thank you.
    Ms. Davis. And also I just wanted to ask then about the 
tracking of war-related expenses and equipment, do we do that 
separately or are all those war-related expenses tracked in one 
way and other military tracking expenditures are tracked 
another way. Do we separate those out or are they together?
    General Huly. I can speak for the Marine Corps in that we 
are capturing all of our war-related expenses and our costs 
separately at this time from our normal operating costs. We had 
a very good foundation of what our normal operating costs were 
preOIF and preOEF.
    We were pretty much able to capture what our costs were, 
not only for our own information and managing internally, but 
to be able to present it to the Congress and to the Department 
of Defense to be able to justify what it is that we are asking 
for. So, yes, ma'am, we do break them out separately.
    Ms. Davis. Is that true for all the services?
    General Christianson. Yes, ma'am. We have to track our 
expenses separately. I know that if an auditor came in to look 
they probably wouldn't think we are doing it as well as we 
should. But we are trying to keep them separate for many, many 
good reasons. We have to do that.
    General Wetekam. The true is for the Air Force as well, 
ma'am.
    Admiral Hugel. Yes, ma'am. Within the capability of our 
ability to distinguish an underway day for the war versus just 
being an underway for other reasons, we do try to distinguish 
those costs. Certainly we program in budget and predict with 
models that are tied to baseline requirements and then wartime 
requirements above that.
    Ms. Davis. Because, I am glad to hear that then because 
there was some question of whether or not DOD allowed that, but 
that is the way that you do that.
    It is my understanding that in 2004 the supplemental 
requested 2.8 billion addressed to equipment and wear and then 
2005 supplemental was about 12 billion for that purpose. Now 
that we are in 2006, if we have a pretty good idea about what 
those amounts are, if you are separating them out, then why 
don't we include those from your point of view in the 2006 
budget request, which will be separate from the supplemental?
    General Christianson. In accordance with the Office of the 
Secretary Defenses (OSD's) policy, the incremental costs of the 
war we put into the supplemental, the emergency supplemental 
request. The problem with trying to anticipate it, and we do 
the best we can when we build a supplemental requirement, is we 
are not exactly sure what is going to come back next year.
    If the security situation changes up or down, the units 
that were returned or the units we will send over will not be 
the ones that we currently are planning. So we could get a lot 
more equipment back. So, for example, if a security situation 
improves dramatically over the next six to eight months by the 
end of this calendar year, we could see a lot more of the 
equipment we have left behind returning here.
    If that happens, there will be a larger amount of RESET 
required next fiscal year than we are currently planning, 
because currently we know we are only planning for the units to 
come back that we think are going to come back.
    So we are kind of in a little bit of a time crunch. I know, 
Mr. Chairman, you had asked earlier, what is the resource that 
really drives all of this? Time is the resource that we really 
don't have any control over. So we--if the budget goes in and 
it has to be in by this time, and we have--we don't know what 
force structures will remain in theater until after that time, 
we have no choice but to ask for it in a supplement.
    Ms. Davis. Where do we factor in equipment for the Iraqi 
Army?
    General Christianson. Most of the equipment that I know--
some of the equipment we have given the Iraqi Army. Some of our 
prepositioned trucks, for example, that are very old models 
that we don't want in the Army anymore. About 1,215 we gave to 
the Iraqi Army. We were compensated, recompensated from 
Coalition Provisional Authority (Iraq) (CPA) for that.
    Most of the other stuff that I know is being purchased 
commercially and is not equipment that the Army, at least in 
the Army's case, the Army is not giving them. It is outside the 
Army.
    Ms. Davis. Great. Thank you.
    Admiral Hugel, I was going to ask you just about the sea 
swapping and what we anticipate down the road. We know there 
are a lot of plusses of that, certainly, but the downside in 
terms of readiness--and if we don't have any more time, Mr. 
Chairman, I will stop. But that was a question that perhaps 
others haven't asked about.
    General Huly. Yes, ma'am, we have done sea swap pilots on 
the west, for a couple of West Coast ships now. We are 
embarking on sea swap pilots for ships based on the East Coast. 
We continue to learn from each of those sea swap exercises the 
upside and the downside, and there appear to be quite a few 
upside things.
    So I think when the Chief of Naval Operations (CNO) 
testified earlier on what the future force structure 
requirements in terms of number of ships might be, he mentioned 
sea swap as an issue and an effort that we are going to 
continue to explore. Depending on our success at employing sea 
swap, depending on how much of the fleet we can do sea swap 
with, we will eventually dictate the size of the force that we 
need because of the extra forward deployed operational 
availability we get from those platforms when we are able to 
swap crews back and forth.
    So far, we have learned many good lessons from sea swap. 
The East Coast ships will add to that collection.
    Ms. Davis. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Evans. Mr. Evans has some questions for the 
record. We will do that. Do any of--any of the rest of you have 
any questions for the record as well? We will do that.
    Are there any final questions or comments?
    If not, the committee stands adjourned.
    Thank you, gentlemen, very, very, much.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 6, 2005

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 6, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3351.001
    
    [GRAPHIC] [TIFF OMITTED] T3351.002
    
    [GRAPHIC] [TIFF OMITTED] T3351.003
    
    [GRAPHIC] [TIFF OMITTED] T3351.004
    
    [GRAPHIC] [TIFF OMITTED] T3351.005
    
    [GRAPHIC] [TIFF OMITTED] T3351.006
    
    [GRAPHIC] [TIFF OMITTED] T3351.007
    
    [GRAPHIC] [TIFF OMITTED] T3351.008
    
    [GRAPHIC] [TIFF OMITTED] T3351.009
    
    [GRAPHIC] [TIFF OMITTED] T3351.010
    
    [GRAPHIC] [TIFF OMITTED] T3351.011
    
    [GRAPHIC] [TIFF OMITTED] T3351.012
    
    [GRAPHIC] [TIFF OMITTED] T3351.013
    
    [GRAPHIC] [TIFF OMITTED] T3351.014
    
    [GRAPHIC] [TIFF OMITTED] T3351.015
    
    [GRAPHIC] [TIFF OMITTED] T3351.016
    
    [GRAPHIC] [TIFF OMITTED] T3351.017
    
    [GRAPHIC] [TIFF OMITTED] T3351.018
    
    [GRAPHIC] [TIFF OMITTED] T3351.019
    
    [GRAPHIC] [TIFF OMITTED] T3351.020
    
    [GRAPHIC] [TIFF OMITTED] T3351.021
    
    [GRAPHIC] [TIFF OMITTED] T3351.022
    
    [GRAPHIC] [TIFF OMITTED] T3351.023
    
    [GRAPHIC] [TIFF OMITTED] T3351.024
    
    [GRAPHIC] [TIFF OMITTED] T3351.025
    
    [GRAPHIC] [TIFF OMITTED] T3351.026
    
    [GRAPHIC] [TIFF OMITTED] T3351.027
    
    [GRAPHIC] [TIFF OMITTED] T3351.028
    
    [GRAPHIC] [TIFF OMITTED] T3351.029
    
    [GRAPHIC] [TIFF OMITTED] T3351.030
    
    [GRAPHIC] [TIFF OMITTED] T3351.031
    
    [GRAPHIC] [TIFF OMITTED] T3351.032
    
    [GRAPHIC] [TIFF OMITTED] T3351.033
    
    [GRAPHIC] [TIFF OMITTED] T3351.034
    
    [GRAPHIC] [TIFF OMITTED] T3351.035
    
    [GRAPHIC] [TIFF OMITTED] T3351.036
    
    [GRAPHIC] [TIFF OMITTED] T3351.037
    
    [GRAPHIC] [TIFF OMITTED] T3351.038
    
    [GRAPHIC] [TIFF OMITTED] T3351.039
    
    [GRAPHIC] [TIFF OMITTED] T3351.040
    
    [GRAPHIC] [TIFF OMITTED] T3351.041
    
    [GRAPHIC] [TIFF OMITTED] T3351.042
    
    [GRAPHIC] [TIFF OMITTED] T3351.043
    
    [GRAPHIC] [TIFF OMITTED] T3351.044
    
    [GRAPHIC] [TIFF OMITTED] T3351.045
    
    [GRAPHIC] [TIFF OMITTED] T3351.046
    
    [GRAPHIC] [TIFF OMITTED] T3351.047
    
    [GRAPHIC] [TIFF OMITTED] T3351.048
    
    [GRAPHIC] [TIFF OMITTED] T3351.049
    
    [GRAPHIC] [TIFF OMITTED] T3351.050
    
    [GRAPHIC] [TIFF OMITTED] T3351.051
    
    [GRAPHIC] [TIFF OMITTED] T3351.052
    
    [GRAPHIC] [TIFF OMITTED] T3351.053
    
    [GRAPHIC] [TIFF OMITTED] T3351.054
    
    [GRAPHIC] [TIFF OMITTED] T3351.055
    
    [GRAPHIC] [TIFF OMITTED] T3351.056
    
    [GRAPHIC] [TIFF OMITTED] T3351.057
    
    [GRAPHIC] [TIFF OMITTED] T3351.058
    
    [GRAPHIC] [TIFF OMITTED] T3351.059
    
    [GRAPHIC] [TIFF OMITTED] T3351.060
    
    [GRAPHIC] [TIFF OMITTED] T3351.061
    
    [GRAPHIC] [TIFF OMITTED] T3351.062
    
    [GRAPHIC] [TIFF OMITTED] T3351.063
    
    [GRAPHIC] [TIFF OMITTED] T3351.064
    
    [GRAPHIC] [TIFF OMITTED] T3351.065
    
    [GRAPHIC] [TIFF OMITTED] T3351.066
    
    [GRAPHIC] [TIFF OMITTED] T3351.067
    
    [GRAPHIC] [TIFF OMITTED] T3351.068
    
    [GRAPHIC] [TIFF OMITTED] T3351.069
    
    [GRAPHIC] [TIFF OMITTED] T3351.070
    
    [GRAPHIC] [TIFF OMITTED] T3351.071
    
    [GRAPHIC] [TIFF OMITTED] T3351.072
    
    [GRAPHIC] [TIFF OMITTED] T3351.073
    
    [GRAPHIC] [TIFF OMITTED] T3351.074
    
    [GRAPHIC] [TIFF OMITTED] T3351.075
    
    [GRAPHIC] [TIFF OMITTED] T3351.076
    
    [GRAPHIC] [TIFF OMITTED] T3351.077
    
    [GRAPHIC] [TIFF OMITTED] T3351.078
    
    [GRAPHIC] [TIFF OMITTED] T3351.079
    
    [GRAPHIC] [TIFF OMITTED] T3351.080
    
    [GRAPHIC] [TIFF OMITTED] T3351.081
    
    [GRAPHIC] [TIFF OMITTED] T3351.082
    
    [GRAPHIC] [TIFF OMITTED] T3351.083
    
    [GRAPHIC] [TIFF OMITTED] T3351.084
    
    [GRAPHIC] [TIFF OMITTED] T3351.085
    
    [GRAPHIC] [TIFF OMITTED] T3351.086
    
    [GRAPHIC] [TIFF OMITTED] T3351.087
    
    [GRAPHIC] [TIFF OMITTED] T3351.088
    
    [GRAPHIC] [TIFF OMITTED] T3351.089
    
    [GRAPHIC] [TIFF OMITTED] T3351.090
    
    [GRAPHIC] [TIFF OMITTED] T3351.091
    
    [GRAPHIC] [TIFF OMITTED] T3351.092
    
    [GRAPHIC] [TIFF OMITTED] T3351.093
    
    [GRAPHIC] [TIFF OMITTED] T3351.094
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 6, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3351.096
    
    [GRAPHIC] [TIFF OMITTED] T3351.097
    
    [GRAPHIC] [TIFF OMITTED] T3351.098
    


      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 6, 2005

=======================================================================
      
                   QUESTIONS SUBMITTED BY MR. HEFLEY

    Mr. Hefley. General Huly, of the various variables impacting the 
ability of your service to accomplish its reset requirements, which is 
the most difficult to manage or attain?
    General Huly. The most difficult variable impacting the Marine 
Corps' ability to accomplish resetting is maintaining an adequate 
inventory of equipment. This is because the Marine Corps must maintain 
sufficient assets in the Area of Responsibility (AOR) to fight the war 
while continuing to train for future deployments and maintain 
sufficient prepositioned assets to be ready to engage in future 
operations.
    The Marine Corps has had to take equipment from home stations, 
training schoolhouses, our Maritime Prepositioned Squadrons and Global 
Preposition Program (Norway) in order to supply deploying units. All of 
the equipment deployed in the AOR is undergoing use at a rate five to 
eight times greater than average peacetime utilization in a challenging 
environment. This has accelerated aging of those assets and our need to 
procure replacements equipment at a far faster rate just to stay even.
    We have employed cross-leveling of equipment across the Marine 
Corps to mitigate the effects of heavy equipment use/loss in the Global 
War on Terror (GWOT). Cross-leveling alone will not be sufficient to 
meet GWOT operational needs and maintain essential readiness over time.
    Mr. Hefley. Of the various variables impacting the ability of your 
service to accomplish its reset requirements, which is the most 
difficult to manage or attain?
    Admiral Hugel. The most challenging variables are the safety of our 
personnel in Iraq and Afghanistan, and transit time to rotate equipment 
to and from CONUS.
    Mr. Hefley. Of the various variables impacting the ability of your 
service to accomplish its reset requirements, which is the most 
difficult to manage or attain?
    General Wetekam. The Air Force faces a number of significant 
reconstitution challenges. The most difficult challenge facing the Air 
Force is recapitalizing and reconstituting our aging aircraft fleet. In 
the mid-1960's, our average fleet age was around 8\1/2\ years, by 
Desert Storm it had climbed to 17 years, and today's fleet average age 
is over 23 years.
    Managing and sustaining these aging airframes strains our resources 
and personnel as well as our supply systems. In addition, harsh 
operating environments and increased ops tempo lead to extensive wear 
and tear on aircraft systems. The sustained high demand for the 
capabilities provided by fleets comprised of primarily older aircraft 
continues to delay our ability to reconstitute while accelerating the 
need for re-capitalization. Also, critical to operating aging fleets is 
the cost to maintain and sustain them. Although there are no current 
constraints regarding our depot capacity, it is crucial that we 
maintain adequate levels of funding for Depot Purchased Equipment 
Maintenance (DPEM) and Contractor Logistics Support (CLS). We have seen 
a steady increase in the DPEM requirement with a comparable increase in 
DPEM funding which has grown from $1.6B in FY00 to $3.3B in FY04, and 
CLS funding which has grown from $1.8B to $2.5B in the same period.
    One program we developed to help address aging aircraft issues is 
the Fleet Viability Board (FVB). We chartered a recurring FVB to 
provide an unbiased assessment of fleet health. Along with the Fleet 
Viability Board assessments, we must continue to divest our oldest 
legacy aircraft to free resources for reinvestment in newer aircraft. 
This allows us to take advantage of new technology and increasing 
capabilities.
    Thank you for your continued support of the Air Force.
    Mr. Hefley. Of the services that have stay-behind or remain-behind 
equipment in Iraq or Afghanistan, how much of that equipment is likely 
to ever return for repair?
    General Huly. The Marine Corps recently conducted an assessment of 
the Demand on Equipment in theater. This assessment took into 
consideration actual and projected combat losses and heightened stress 
placed on equipment due to the OPTEMPO and environmental impact. 
Equipment that cannot be repaired in theater is transported from Iraq 
back to CONUS for evaluation and induction into the depot maintenance 
cycle. For equipment that is experiencing heightened usage, the 
objective is to rotate it systematically to replace tired equipment 
with fresh equipment before it becomes unserviceable/irreparable.
    To date, the USMC has had two ships sets of gear return to CONUS 
for replacement/refurbishment with three additional ships scheduled for 
return over the next several months. We continue to monitor equipment, 
the replenishment cycle, and will leverage opportune lift for air 
return of retrograde assets as well as surface return for ground 
equipment assets.
    We recognize the need to automate this decision process and are 
developing a tool that integrates equipment usage rates, combat losses, 
and cost factors from our operating forces, program managers, and our 
Marine Corps Logistics Command. This Total Life Cycle Management Tool 
will provide a mechanism from which future sound, prudent, mission-
focused Marine Corps management decisions can be made regarding 
equipment maintenance and/or new acquisitions.
    Mr. Hefley. Of the services that have stay-behind or remain-behind 
equipment in Iraq or Afghanistan, how much of that equipment is likely 
to ever return for repair?
    Admiral Hugel. Unless the equipment is deemed beyond economical 
repair or suffers from extensive battle damage, we anticipate all of 
the equipment to return for servicing. Aviation Support Equipment in 
part due to quantity and size, is rotated via Maritime Prepositioning 
Force (MPF) ships as the Marine Air Wing (MAW) rotates into theatre. 
Aircraft are rotated back in keeping with their peace time established 
depot maintenance schedule. Seabee equipment is also rotated primarily 
through MPF ships.
    Mr. Hefley. Of the services that have stay-behind or remain-behind 
equipment in Iraq or Afghanistan, how much of that equipment is likely 
to ever return for repair?
    General Wetekam. Most equipment used by the Air Force is sustained 
under a maintenance concept that doesn't require it to return to the 
United States for repair. Air Force equipment is used, inspected, 
serviced and maintained at the location of use until the equipment is 
neither no longer necessary or has completed it's life cycle. If the 
equipment is no longer necessary and is still serviceable, it is 
reallocated to other valid users within the Air Force. If the equipment 
has reached the end of it's lifecycle, it is demilitarized (if 
necessary) and disposed of via established disposal processes. For that 
very small population of equipment items requiring return to the United 
States for repair, e.g., materiel handling equipment, selected 
communications-electronics equipment, etc., the Air Force returns that 
equipment to the government depot system or private sector contractors 
for repair and/or overhaul.
    Mr. Hefley. To what extent do you have the ability to perform depot 
maintenance in Iraq, Afghanistan or Kuwait?
    General Huly. Currently limited depot maintenance is being 
conducted in theater. The lack of infrastructure inhibits our ability 
to create this capability. However, the ability of CONUS based depots 
to respond to GWOT requirements remains high.
    The Marine Corps and the Army are partnering to leverage heavy 
maintenance support for ground vehicles in Iraq. The first facility to 
implement this partnership is the Army's HMMWV Service Center. The 
Service Center will provide preventive, corrective, and heavy 
maintenance support in several locations throughout the area. In 
addition to the HMMWV, 13 systems that are common to both the Marine 
Corps and Army have been identified as candidates for joint repair 
capability. Currently the Marine Corps units in theater have the 
resident maintenance capability and expertise to sustain its units up 
to depot level maintenance. We will continue to expand this partnership 
and leverage common repair facilities where at all possible.
    Marine aviation has a limited depot-like repair capability in the 
Iraq Theater. We have facilities in theater with depot artisans; this 
provides capabilities tailored to the requirements of the deployed 
rotary wing units (fixed wing depot capability is almost exclusively 
resident in CONUS). Complete full depot-level maintenance is not done 
in Iraq; as such work requires infrastructure and tools not available 
there. For example, we have artisans in theater that can conduct 
aircraft battle damage assessments and some associated repairs, as well 
as structural analysis and deep cleaning. Standard depot work such as 
complete rebuilding of components, however, cannot usually be done at 
these limited facilities. A Memorandum Of Agreement with the US Army 
has allowed us to leverage their depot-like capabilities in Afghanistan 
when required to support Marine aircraft detachments operating there.
    Mr. Hefley. To what extent do you have the ability to perform depot 
maintenance in Iraq, Afghanistan or Kuwait?
    Admiral Hugel. For Aviation Support Equipment, we maintain the 
ability to do emergent field depot maintenance and battle damage repair 
using flyaway depot artisans in theatre both ashore and afloat. Battle 
damage or emergent repairs that require extensive depot rework must be 
returned to CONUS. Normal peacetime scheduled depot level maintenance 
is performed only in CONUS. For Navy Seabee equipment, we do not 
perform depot level maintenance in Iraq, Afghanistan or Kuwait.
    Mr. Hefley. To what extent do you have the ability to perform depot 
maintenance in Iraq, Afghanistan or Kuwait?
    General Wetekam. The Air Force neither has nor requires physical 
depot capabilities in Iraq, Afghanistan or Kuwait. Depot maintenance is 
the heavy repair work that requires specialized equipment, facilities 
and skills not found within our deployed maintenance forces. As a 
result, the Air Force returns equipment requiring repair and/or 
overhaul to organic and contract depot repair facilities throughout the 
globe. On a selective basis, theater maintenance is complemented by 
deployable expeditionary depot maintenance support via Combat Logistics 
Support Squadron (CLSS) teams, Contract Field Teams (CFTs) and/or Depot 
Field Teams (DFTs).
    Mr. Hefley. To what extent do you have the ability to perform depot 
maintenance in Iraq, Afghanistan or Kuwait?
    General Christianson. We do not perform depot level maintenance on 
the equipment in theater. Rather, the U.S. Army Materiel Command (AMC) 
and its subordinate commands have established Forward Repair Activities 
(FRA) which provide a repair and return capability and a flexible 
response to urgent requirements, such as the application of Add-on 
Armor kits. Employees from our depots and commercial contractors 
perform the work at the FRAs. The FRAs are specialized and vary in size 
based upon the Warfighers' requirements. Supporting aviation, ground 
vehicles and electronic equipment, these FRAs are located in Kuwait, 
Afghanistan, and at three sites in Iraq.
    Mr. Hefley. What is the difference between the Army's RESET program 
and the Recapitalization program?
    General Christianson. The Army's Recapitalization program is depot 
repair, based on an extensive maintenance scope of work, that rebuilds 
our equipment to a near, zero time/zero mile condition. Through this 
effort, we extend the service life of our aging fleets. The result of 
the Recapitalization program is sustained system readiness through 
improved reliability and availability.
    The Army's Reset program is a series of actions to restore 
returning units to a desired level of combat capability. Returning 
equipment is repaired to address the damage inflicted by heavy usage in 
a desert environment. Some of this repair work is below depot level 
maintenance, accomplished in the unit motor pools or other maintenance 
facilities. Some equipment requires work that can only be accomplished 
with the skills and equipment available in depot facilities. The high 
operational tempo in theater places some equipment under great stress. 
In effect, a year operating within theater equates to five or six years 
of operation in peacetime for some equipment. To mitigate this 
accelerated aging of the fleets, we are applying the Recapitalization 
scope of work to the returning equipment in the worst condition. Reset 
also includes the procurement of new equipment to replace battle losses 
and equipment that is not economically repairable.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. Are there reports that can give us a comparison of 
readiness rates at the beginning of the conflict versus now?
    General Christianson. During the initial phase of the conflict, the 
Army experienced readiness rates below the DA Goal for some critical 
combat weapon systems. During this time, readiness was challenging 
because of the supply pipeline and theater distribution system in an 
immature theater. The theater is currently matured and many of the 
initial shortcomings have been resolved. For the past year, the Army 
has shown a positive trend in maintaining its critical combat systems 
(M1, M2/3, M109A6, MLRS, PATRIOT, AH-64, UH-60, OH-58D & CH-47D) 
resulting in exceeding the Department of the Army (DA) Goal (90 percent 
for ground and 75 percent for air) in the past six months for all 
systems except the AH-64 and CH-47 in the OIF/OEF theater of operation. 
Although the AH-64 and CH-47D trends are slightly below the Army goal, 
the materiel readiness did not hamper any operational missions. The 
Army has established Forward Repair Activities, Field Service 
Representatives and Contract Maintenance to assist in maintaining the 
combat weapon systems in support of Operation Iraqi Freedom in which 
track vehicles are being used at five times and aviation two to three 
times their peacetime OPTEMPO. The theater has the highest priority for 
CL IX repair parts and any systemic materiel or maintenance issues are 
discussed at the senior leaders' weekly HQDA VTC with the theater. We 
have made significant progress in filling supply requests by fielding 
satellite connectivity to the very forward edge of the battlefield for 
logisticians. Before this improvement, it took several days, on 
average, for a repair part request to be sent to CONUS. Today, it takes 
less than a half day. This has made a significant difference in the 
ability to support deployed forces. Additionally, the Army and DLA have 
established substantial supply facilities in Kuwait. Thirty-five to 
forty percent of repair parts requests required in Iraq are shipped 
from Kuwait. The emphasis on theater readiness, however, has hampered 
efforts to maintain readiness in non-deployed units. As RESET of 
returning units is conducted and depot level programs, to include 
RECAP, are conducted, the Army expects readiness in non-deployed units 
to also improve.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. Status and thoughts on the program to replace fuel pods 
on the C-130.
    General Huly. The USMC is actively focused on rapidly upgrading the 
refueling pods to address the issues noted by Mr. Taylor. The refueling 
pods issues constituted a Part I deficiency identified during 
Operational Test and Evaluation. Currently (as of June 2005) five 
aircraft have the upgraded refueling pod system. Four of these aircraft 
are located at MCAS Miramar, and the other is the test aircraft at Pax 
River (VX-20). There is a detailed plan to perform this upgrade on all 
remaining aircraft; we expect to upgrade approximately two aircraft per 
month, which should complete the upgrades by June 2006.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. HAYES

    Mr. Hayes. You are confirming what we had feared. The MCS study was 
due at the end of March; now it comes out at the end of April. I am 
pretty sure we use that as another way of letting folks up here know 
what the situation is. At Pope, we have got 31 aircraft grounded, seven 
or eight limited flying status, 20 percent of the fleet, 84 of which 
are on active duty on restricted weight capabilities. We have just got 
to keep hammering the fact that recapitalization, that is keeping our 
young men off the ground in Iraq and Afghanistan and increasing safety.
    Talk at length about the continued, not just procurement as it is 
now outlined-and hopefully, we have corrected the initial oversight in 
the budget for continuing production. Speak to that, and then speak to 
the issue of what really we need, and that is more C-130Js than was 
initially projected. And anyone else that would like to speak in the 
range of whoever uses them, I would love to have your comments for the 
record. We need those aircraft badly.
    General Wetekam. As you know, the C-130 has proven to be one of the 
most effective air lifters in the Air Force since the first A model 
entered the inventory in the late 1950's to the current E, H and J 
models. It has been involved in every major conflict from Vietnam to 
Iraqi Freedom. The stated requirement for C-130 combat delivery intra-
theater airlift is a minimum of 421 E/H equivalents, a mix of C-130 E, 
H and J model aircraft. In order to meet that requirement, the Air 
Force is currently modernizing the intra-theater fleet through the C-
130 Avionics Modernization Program (AMP) and will continue to 
recapitalize the oldest most problematic C-130s with the C-130Js. 
Moreover, the Air Force, through the MCS and QDR, as well as the Joint 
Intra-theater Airlift Study, will refine the intra-theater airlift 
requirement and force mix for the total force.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SCHWARZ

    Dr. Schwarz. The plan is to upgrade, refit, refurbish. What part of 
that fleet will keep them active and in the inventory, my 
understanding, until maybe the year 2018, 2020?
    General Wetekam. The plan is to upgrade the entire A-10 inventory 
of 356 aircraft (203 active duty, 102 Air National Guard, 51 Air Force 
Reserve Component) with the A-10 Service Life Extension Program (SLEP) 
and Precision Engagement (PE).
    The A-10 SLEP extends the service life to 16,000 operational flight 
hours, supporting operations through the aircraft retirement in the 
2023 timeframe. The SLEP program is designed to increase the A-10 
service life through inspections and consolidated structural 
improvements such as repairs to cracks, removal of corrosion from fuel 
tanks and replacement of wing leading edges. Estimated cost for the 
SLEP program is about $2.1M per aircraft for FY05-FY11.
    Precision Engagement greatly enhances A-10 operations on the 
digital battlefield by improving aircraft avionics, integrating a 
tactical datalink: and a targeting pod, and adding J-series weapons 
capability (global positioning satellite guided weapons). This $322M 
program provides significantly greater combat capability for the A-10 
and completes in FY09. Precision Engagement upgraded aircraft are 
designated A-10C.
    The A-10 program also has $156M in FY06 through FY08 for system 
development and demonstration of an engine kit designed to improve 
engine performance. A decision to procure the engine kits ($1.8B) will 
be made during the FY08 POM cycle.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Can you, in particular, General, talk about how many 
aircraft are currently affected by wing box cracks? Given the rate that 
we have seen over the last year with the problem, can you forecast what 
we may run into this year? I ask all this to go to the point of the 
company or companies that produces the wing boxes, do they have the 
capacity? Are they producing fast enough to be able to replace what 
needs to be done so that we don't run into a crisis in regards to 
replacing those parts.
    General Wetekam. As of 20 April 2005, there are 57 aircraft 
restricted and 31 aircraft grounded. Another four aircraft that 
experienced grounding center wing box cracks have been retired.
    Our forecast estimates 6 additional aircraft will reach the 45K 
Equivalent Baseline Hours (EBH) threshold and be grounded, and 12 
additional aircraft will reach the 38K EBH threshold and be restricted, 
in the next 12 months.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA

    Ms. Davis. Thank you, Mr. Chairman, thank you to you all for being 
here, and for your service, and particularly to General Huly. We miss 
you, and miss your service in San Diego. I wanted to turn just a second 
to what could be, I guess, the most personal of all readiness 
questions, having met with a group of Marines just a few days ago in 
San Diego, who were being treated at Balboa Hospital.
    One of their big concerns was that their weapons jammed, and that 
even despite their cleaning the weapons constantly, that they still are 
having a lot of problems, it is hard to get a replacement, and they 
also mentioned that they would like to have a side arm available to 
them so that when their weapons jammed that they have a backup.
    Could you tell me how you would respond to them when they make 
those requests, and what we are doing about that?
    General Huly. We have queried numerous Marines currently deployed 
in theater and are not aware of any jamming issues with the Modular 
Weapon System (M16A4 or M4). No reports of weapons jamming have been 
received and no documentation of not being able to get replacements is 
available. The Army recently conducted a lubrication study with Marine 
Corps participation for small arms due to numerous claims that its 
existing lubricant was causing malfunctions due to the environment it 
was being employed in (sandy, dusty). This lubrication study found that 
the lubricant that is currently in use is, in fact, better than 
lubricants commercially available for weapons.
    The Marine Corps has had an issue with M9 service pistols jamming 
and an investigation into the cause of the jamming revealed the problem 
to be a magazine issue. The root cause of the M9 jamming was found to 
be a surface finish on some contracted magazines that had been issued 
and these magazines are being removed from the inventory and M9 
magazines are being replaced by an improved magazine with a better 
surface finish and improved feeding reliability.
    In reference to having a backup weapon available, Marines are not 
routinely issued secondary or ``backup'' weapons. Some key billets, 
which employ crew served weapons, are issued a secondary weapon because 
the primary weapon is not intended for use by or protection of an 
individual.

                                  <all>

</pre></body></html>
